<html>
<title> - CHINA'S WAR ON CHRISTIANITY AND OTHER RELIGIOUS FAITHS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







         CHINA'S WAR ON CHRISTIANITY AND OTHER RELIGIOUS FAITHS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 27, 2018

                               __________

                           Serial No. 115-167

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 
                       or http://www.Govinfo.gov
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
32-308PDF                WASHINGTON : 2018                 































                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania<greek-l>   TULSI GABBARD, Hawaii
RON DeSANTIS, Florida [until 9/10/   JOAQUIN CASTRO, Texas
    18] deg.                         ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah
VACANT

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia 


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Tenzin Dorjee, Ph.D., Commissioner, U.S. Commission on 
  International Religious Freedom................................     6
Bob Fu, Ph.D., founder and president, ChinaAid...................    20
Thomas Farr, Ph.D., president, Religious Freedom Institute.......    43

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Tenzin Dorjee, Ph.D.: Prepared statement.........................    10
Bob Fu, Ph.D.: Prepared statement................................    25
Thomas Farr, Ph.D.: Prepared statement...........................    45

                                APPENDIX

Hearing notice...................................................    68
Hearing minutes..................................................    69
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Joint Statement by Pastors: A Declaration for the Sake of the 
    Christian Faith (3rd edition, 198 pastors)...................    70
  Freedom House Special Report: The Battle for China's Spirit, by 
    Sarah Cook...................................................    78
  Senator Rubio, chairman, and Representative Smith, cochairman, 
    CECC letter to Secretary Ross................................    86

 
         CHINA'S WAR ON CHRISTIANITY AND OTHER RELIGIOUS FAITHS

                              ----------                              


                      THURSDAY, SEPTEMBER 27, 2018

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2255, Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The committee will come to order.
    Good afternoon to everybody.
    Several years ago, during a visit to the United States, Xi 
Jinping chose to be interviewed by a Chinese reporter living in 
the United States. After the interview, President Xi asked a 
single question of this reporter, not about his family, not 
about whether he enjoyed living in the United States, or about 
any stories he might be writing. The one question he asked was, 
why do so many Chinese students and faculty living in the 
United States become Christians?
    Whatever was behind that question, religious freedom 
conditions in China have not improved because of it. Quite the 
opposite. In fact, President Xi Jinping has personally launched 
efforts to sinicize religion, and the Central Government has 
issued commands to each Provincial Party Secretary making them 
responsible to bring religion in line with Communist Party 
ideology.
    The Chinese government is an equal opportunity abuser of 
religious freedom. As you, sir, Commissioner Tenzin Dorjee, 
will testify, Xi Jinping's stated goal of sinicization affects 
all religious communities in China, Tibetan Buddhists, Falun 
Gong practitioners, Daoists, Muslims, and Christians.
    Over the course of this year, the Chinese government has 
intensified the most severe crackdown on religious activity 
since the Cultural Revolution. Regulations on religious 
affairs, issued in February, tightened the existing restriction 
and new draft regulations are being circulated to clamp down on 
religious expression online. Churches, mosques, and temples 
have been demolished, crosses destroyed. Children have been 
prohibited from attending services, and surveillance cameras 
are being installed in churches.
    Xi Jinping talks about realizing the China dream, but when 
Bibles are burned, when a simple prayer over a meal in public 
becomes an illegal religious gathering, and when over 1 million 
Uyghur and Kazakh Muslims are interned in reeducation camps and 
forced to renounce their faith, that dream is an unmitigated 
nightmare. Much of the news lately has been the Chinese 
government's targeting of Christians.
    The sinicization campaign has affected both state-
controlled and unregistered churches. Protestant and Catholic 
clergy remain in prison. And the human rights lawyers who 
defend religious believers have been jailed, disappeared, or 
tortured into silence.
    Xi Jinping views the fast-growing Christian churches, 
particularly the Protestant house church movement that does not 
belong to the state-sanctioned Protestant entities, as a threat 
to the dominance of the Chinese Communist Party. One of our 
witnesses here today, my good friend, the Reverend Dr. Bob Fu, 
has detailed on countless occasions the Communist Party's 
vicious war on independent house churches.
    Underground churches, meaning those that do not belong to 
the state-sanctioned Patriotic Association, have faced 
tremendous persecution for decades, including Bishop Xu Jiamen, 
who I met back in 1994. Bishop Xu--and it was in a small 
apartment in Beijing--Bishop Xu's body bore witness to the 
brutality of China's Communist Party. He was beaten, starved 
and tortured for his faith, and spent, ultimately, some 40 
years in the Chinese gulag.
    Yet, when I met with him, he prayed not just for the 
persecuted church, but for the conversion of those who hate, 
torture, and kill. I was absolutely amazed at his kindness and 
said, ``What does the Chinese government fear in Bishop Xu?'' 
All he had in his heart was love and compassion, and as I said, 
he prayed for those who persecuted him and other believers of 
all the faiths. Unfortunately, only a couple of years after 
Bishop Xu met with me, because he was out only a few years, he 
was arrested and disappeared, and has not been heard from 
since.
    Today's efforts to forcibly close underground parishes 
expanded this year. China's Ethnic and Religious Bureau told 
the state propaganda arm, Global Times, in April, that 
``activities in illegally-built parishes will be prohibited.'' 
And underground Catholic churches were being shuttered this 
very summer.
    Recent reports indicate that a deal has been struck by the 
Holy See and the Chinese government, whereby the Pope will have 
veto power over Chinese government-approved candidates to be 
ordained as bishops. In exchange, seven previously 
excommunicated priests ordained without papal mandate and 
appointed by the Chinese government will be welcomed back into 
the full community with Rome.
    Already the Vatican has been asked two validly ordained 
bishops to step aside to make way for two formerly 
excommunicated bishops. Cardinal Joseph Zen, bishop emeritus in 
Hong Kong, has questioned whether Vatican officials making 
these decisions ``know what true suffering is.''
    The reports are that the deal is provisional and full 
details are yet unknown. But, with the efforts underway to 
forcibly sinicize religion, it certainly seems an odd time to 
strike a deal with Xi Jinping in China. I hope and pray this 
agreement will bring true religious freedom for Catholics and, 
by extension, all people of all faiths who have suffered so 
much to maintain their faith. We will continue to monitor that 
situation closely to see if force is used by the Chinese 
government to close all underground or unregistered Catholic 
churches as a result of the deal.
    I do look forward to hearing from our very distinguished 
witnesses, including Dr. Tom Farr, on what the implications of 
this deal would be and his recommendations for U.S. religious 
freedom in diplomacy.
    Finally, U.S.-China tensions are high at the moment on a 
myriad of fronts. And the Chinese government, presumably, is 
searching for ways to reduce, not escalate them. At least that 
is the thought. Taking a hammer and a sickle to the cross or 
jailing 1 million Uyghur Muslims, however, will only ensure a 
tougher China policy, one with widespread, bipartisan, and even 
global support.
    Frankly, I would call on the Trump administration to use 
all the tools that they have, including those that were 
embedded in the Frank Wolf International Religious Freedom Act, 
which was passed just a couple of years ago, and the Global 
Magnitsky Act, which is designed to hold individual persecutors 
to account for their crimes. Not only making them ineligible to 
travel to the United States by way of visa denial, but also 
ensuring that they could not do business here because of their 
egregious behavior. So, that would be a followup that we will 
be asking the administration.
    We would also hope, as I think, Tom, you mentioned in your 
testimony, that the designation of CPC for China and others be 
done immediately. The Frank Wolf International Religious 
Freedom Act called for that being done by August. So, we have 
already seen some delay.
    I would say, parenthetically, that under the Obama 
administration, we had years of delay before CPC was 
designated, which is one of the catalysts for the language that 
I wrote into that bill, the Frank Wolf International Religious 
Freedom Act. But now we are several weeks past the deadline. 
What is the holdup? Hopefully, that will be remedied very soon.
    Mr. Suozzi, I yield.
    Mr. Suozzi. Thank you, Mr. Chairman. I want to thank you 
for calling this hearing on a very important topic that doesn't 
get nearly enough attention from the governments around the 
world.
    I want you to just know, on a personal note, that I 
attended my nephew's wedding in California this week, and the 
priest who performed the wedding, who is from my hometown of 
Glen Cove, was asked by Mother Teresa in the 1980s to bring 
Mother Teresa's order to China, and he has been working there 
for the past 30 years and I think could give us some good 
insights as to what is going on in China directly related to 
the Catholic Church. I think he has been involved in trying to 
help negotiate this.
    In the past, China has been referred to as the ``Middle 
Kingdom'' or the ``Sleeping Giant.'' And I think we can be sure 
that China's aspirations go beyond either of these titles. 
China has asserted itself on the global scene as an economic 
power, a military power, and a power that wishes to create a 
parallel international order. It relies on the lack of 
transparency to advance its interests, uses their economic 
clout to bully critics into silence, and is one of the world's 
biggest sources of illicit capital, funding some of humanities 
worst impulses across the globe.
    At the same time, it presents itself as an alternative to 
the western system through both soft and sharp power 
initiatives. Our national security strategy calls China a 
strategic competitor, and our top intelligence sources or 
officers sounded the alarm in Aspen that China is the No. 1 
economic and national security threat.
    We have paid a lot of attention to how China acts on the 
global stage, but looking into how China treats its own gives 
us a chilling insight into the Chinese Communist Party thinks, 
what they believe a society should look like, what kinds of 
rights and dignities they think a government should allow to 
its citizenry.
    It is not the government's role to allow freedoms. Humans 
are born free, as much as the Chinese seek to act to the 
contrary. Under the leadership of Xi Jinping, religion is being 
severely curtailed and repressed. He launched a campaign of 
harsh and systemic suppression with the goal of sinicizing 
China's religious by infusing them with Chinese 
characteristics. Sinicizing has the aim to transform religion 
and ethnicity in Chinese society, a long-reaching program that 
seeks to homogenize the Chinese into one single identity and 
requiring loyalty to the Communist Party.
    Their concerns about having complete control and their fear 
of chaos are dictating much of this policy. This effort has 
resulted in the brutal religious persecution of Christians, 
both Catholic and Protestant; Muslims; Falun Gong; Buddhists, 
and others. International headlines include horrific reports of 
forced conversions, reeducation camps, arbitrary arrests, and 
torture.
    The activity in China is not new. After the People's 
Republic was established in 1949, all religion was severely 
suppressed. Religions were viewed by the Chinese Communist 
Party as a threat to their rule, as an organizing principle 
besides that of the Party was condemned.
    China embraced the Marxist ideology of religion as opium of 
the masses and as a tactic for foreign influence in China. The 
Communist Chinese Party viewed Christianity as part and parcel 
of Western imperialism in China during the 100 years of 
humiliation, beginning in the 1840s. Religious freedom 
continued to be severely repressed during the Cultural 
Revolution of the 1960s.
    A revival of the religions that began in the 1980s was 
marked by development of the unofficial Protestant house church 
movement and an underground Catholic movement loyal to the 
Vatican. In 1982, the Chinese constitution does name/guarantee 
freedom of belief, according to Article 36, and forbids 
organizations or individuals from compelling citizens to 
believe in or not believe in religion.
    This supposed guarantee of freedom of belief, however, does 
not guarantee freedom of practice. The practice of religion in 
China has been stifled by Chinese policy, practice, and 
ideology. The guiding ideology for religion in China is the 
three-self policy: Self-lead, self-funded, self-perpetuating. 
These mandates of ``self'' have cut off institutional support 
from world religions and facilitated the exclusion Communist 
Party's direct control over the Chinese people's religious 
practice.
    In fact, when China cut relations with the Vatican in 1951, 
it asserted complete control over the Patriotic Catholic Church 
in China, appointing its own bishops and clergy. Catholics in 
China faced either attending churches approved by Beijing or 
going to underground congregations.
    A new government policy further ensconced the Communist 
Party's control over religion when they announced in October 
2017 and closed the state government's Religious Affairs 
Bureau, and placed administration over religions under the 
United Front Work Department of the Communist Party.
    Under Communist orders, local governments across the 
country have shut down hundreds of house churches. Catholic 
clergy anointed by the Vatican were incarcerated, and crosses 
on churches have been destroyed. A recent agreement between the 
Vatican and Beijing offers what the Vatican describes as a 
``gradual and reciprocal rapprochement.'' I am hoping the 
witnesses here today can provide some insights into how this 
will play out.
    Another issue of major concern is the brutal persecution of 
China's ethnic Muslim population, the Uyghurs. In what appears 
to amount to an ethnic cleansing, anywhere from hundreds of 
thousands to 1 million Muslims have been arrested and put in 
reeducation camps or internment. Beijing argues that these 
measures are necessary for their security to prevent separatism 
of this northwestern province and to counter terrorism, but the 
scope of repression far exceeds the perceived threat.
    Both Chinese and American officials say that 1500 Uyghurs 
have fought alongside Islam groups in Syria. But, according to 
a 2016 list of foreign recruits from an Islamic State defector, 
only 144 fighters came from Xinxiang.
    In these reeducation camps, the Muslims report torture, 
abuse, forced disappearances, and separation from their 
children, forced to eat pork and cremate their burials, counter 
to Muslim tradition. And while Beijing may deny that these 
camps exist, satellite images show the contrary, and the 
victims' stories are slowly trickling out.
    Xinxiang has become a prototype for their police state that 
would make the dystopia Orwell described in his book, ``1984,'' 
seem like a benevolent, with multiple checkpoints, facial 
recognition, QR scanning codes on the home, thousands of 
police, both uniformed and plain-clothed. Artificial 
intelligence is being used to gather data every minute in 
minute detail that all feeds into a system that rates how loyal 
the individual is to the Chinese state. While the media has 
sounded the alarm, we need governments to step in and do more.
    I look forward to hearing the witnesses' testimony. I yield 
back my time.
    Mr. Smith. Mr. Suozzi, thank you very much for your 
testimony.
    I would like to now welcome the chairman of the U.S. 
Commission on International Religious Freedom, Dr. Tenzin 
Dorjee. He is also an associate professor at the Department of 
Human Communication Studies at California State University in 
Fullerton.
    He was appointed to the Commission on December 8th, 2016 
and reappointed by Minority Leader Nancy Pelosi on May 10th, 
2018. On June 12, 2018, Dr. Dorjee was unanimously elected 
Chair of the Commission.
    His teaching and research interests include intercultural 
and intergenerational communication, peacebuilding, and 
conflict resolution. Dr. Dorjee has authored and coauthored 
numerous articles and invited chapters on Tibetan culture, 
identity, nonviolence, Sino-Tibetan conflict, and intercultural 
communications competence.
    Dr. Dorjee is a prominent translator who worked in the 
Translation and Research Bureau of the Library of Tibetan Works 
and the Archives of Dharamsala in India for over 13 years. He 
has had the honor to translate for many prominent Tibetan 
Buddhist professors, including His Holiness the Dalai Lama, in 
India and North America.
    Dr. Dorjee has traveled to Burma and Iraq to monitor 
religious freedom conditions there, and has testified before 
the U.S. Congress before on the issue of religious freedom and 
conditions in Tibet and China, including the long arm of China 
in the U.S. academic institutions.
    Dr. Dorjee, welcome, and the floor is yours.

     STATEMENT OF TENZIN DORJEE, PH.D., COMMISSIONER, U.S. 
         COMMISSION ON INTERNATIONAL RELIGIOUS FREEDOM

    Mr. Dorjee. Chairman Chris Smith, Congressman Suozzi, and 
other members of the subcommittee, good afternoon, and thank 
you for the opportunity to testify today on behalf of the 
United States Commission on International Religious Freedom, or 
USCIRF, about the Chinese government's outright assault on 
person of any faith, but particularly those associated with 
foreigners such as Christians and Muslims.
    I am Tenzin Dorjee, USCIRF's current Chair and the only 
Tibetan Buddhist ever appointed to serve on the Commission. 
USCIRF is an independent, bipartisan U.S. Federal Government 
Commission created by the 1998 International Religious Freedom 
Act, or IRFA. The Commission monitors the universal right of 
freedom of religion or belief abroad, using international 
standards to do so, and makes policy recommendations to 
Congress, the President, and the Secretary of State.
    I am honored to be joined at this hearing by two esteemed 
scholars who also work on international religious freedom, Bob 
Fu of ChinaAid and Thomas Farr of the Religious Freedom 
Institute. I look forward to their testimonies.
    USCIRF began reporting on China in our very first annual 
report, and has continued to do so every year since, because of 
that country's systematic, ongoing, egregious violations of 
religious freedom. The State Department first designated China 
as a ``country of particular concern,'' or CPC, in 1999, and 
has done so in every instance the Department has made such 
designations, most recently in December 2017. And USCIRF has 
recommended the CPC designation for China every single year.
    Regrettably, the conditions of USCIRF first reported in 
China nearly two decades ago have not improved. In fact, the 
conditions have worsened under President Xi Jinping due to the 
sinicization and securitization of religion. Religions must be 
in accord with Communist ideology, and religious freedom is 
most severely restricted in the name of national security. 
USCIRF has consistently raised these two pertinent issues at 
various hearings and events. Relatedly, USCIRF's 2018 annual 
report depicted ongoing repression and discrimination directed 
at Tibetan Buddhists, Uyghur Muslims, Protestants, Catholics, 
and Falun Gong practitioners.
    These abuses include: Destruction and dismantling of houses 
of worship and religious symbols; forced evictions from, and 
demolition of, religious educational institutions; 
restrictions, related to the practice and the study of one's 
faith, on language, culture, attire, parents' ability to name 
and teach their children, religious rituals and ceremonies, and 
freedom of movement; imprisonment of religious leaders and 
followers, as well as lawyers and human rights defenders 
advocating for religious freedom; prolonged disappearances and 
arbitrary detention without trial, denials of legal 
representation and medical care, and intimidation and physical 
assaults, sometimes through torture, to force believers to 
renounce their faith; forced attendance, or even unlawful 
detention, at reeducation and indoctrination facilities; and 
pressure to join state-sanctioned religious organizations.
    The scope and scale of these violations is staggering. 
Perhaps the best way to convey China's horrific religious 
freedom conditions is by highlighting the human element, such 
as the Chinese prisoners that are part of USCIRF's Religious 
Prisoners of Conscience Project. Through that project, USCIRF 
Commissioners advocate on behalf of specific individuals 
imprisoned for their faith background or religious activity. In 
China, Commissioners are advocating for three such prisoners.
    The Panchen Lama. Gedhun Choekyi Nyima, the Panchen Lama, 
holds the second highest position in Tibetan Buddhism and is 
one of the world's longest-held prisoners of conscience. 
Chinese government authorities kidnapped the then-6-year-old 
boy and his family on May 18, 1995. They have not been heard of 
since. Just days before Gedhun's abduction, His Holiness the 
Dalai Lama chose him to be the 11th Panchen Lama. The Chinese 
government, in complete disregard for the Tibetan people, named 
its own Panchen Lama, though most Tibetan Buddhists reject this 
selection.
    The Panchen Lama's disappearance and detention is in the 
context of the Chinese government's ongoing vilification of the 
Dalai Lama; its asserted control over the reincarnation system 
of Tibetan Buddhism that includes the Dalai Lama's 
reincarnation; the destruction of important Buddhist sites at 
Larung Gar and Yachen Gar; the pervasive security presence 
through the Tibet area, including inside monasteries and 
nunneries, and imprisonment of countless Tibetans like language 
advocate Tashi Wangchuk, whose appeal of his 5-year prison 
sentence was denied just this August. Chinese repression is so 
extreme that at least 153 Tibetans have self-immolated since 
February 2009 in support of religious freedom, human rights, 
and the return of the Dalai Lama to Tibet.
    Gulmira Imin. On July 5, 2009, Gulmira Imin, an Uyghur 
Muslim, participated in a demonstration following the deaths of 
Uyghur migrant workers. Authorities accused her of helping to 
organize the demonstration, in part by posting information 
about it online. A court sentenced Ms. Imin to life in prison 
on charges of ``splittism,'' leaking state secrets, and 
organizing an illegal demonstration. Her only crime was 
defending her fellow Uyghur Muslims.
    When we think of a war on religion, Beijing's overt 
criminalization of Islam certainly comes to mind. The 
government prevents Uyghur Muslims from observing Ramadan, 
invades their private everyday lives with pervasive security 
measures, prohibits children from attending mosque, and bans 
Uyghur language instruction in schools.
    Worst of all, the Chinese government is detaining 
approximately 1 million Uyghur Muslims in unlawful detention 
camps, allegedly to provide vocational training to prevent 
extremism. Imagine the entire city of San Jose, California, a 
population of just over 1 million people, detained against 
their will. And the Chinese government is not just punishing 
those currently detained. Authorities harass and intimidate 
their loved ones, cruelly separating families, and have 
inflicted severe trauma on generations of Uyghurs impacted by 
gross ill treatment, torture, and shame just because they are 
Muslim.
    Hu Shigen. In August 2016, a Chinese court found 
underground church leader and religious freedom advocate Hu 
Shigen guilty of subversion and sentenced him to 7\1/2\ years 
in prison and another 5 years' deprivation of political rights. 
He was one of nearly 300 lawyers and activists arrested, 
detained, or disappeared as part of a nationwide crackdown that 
began on July 9, 2015, also known as the ``709 Crackdown.''
    The already poor situation for Christians, like other 
religious groups, has markedly declined since new religious 
regulations came into effect on February 1st this year. Just 
days prior to the regulations, Chinese police used dynamite to 
annihilate the evangelical Golden Lampstand Church. More 
recently, authorities shut down Zion Church, one of Beijing's 
largest unregistered Protestant house churches.
    Across several provinces, authorities have confiscated 
Bibles; demolished churches; moved or destroyed crosses or 
other religious symbols, sometimes replacing them with the 
Chinese flag, and arrested countless Christians. In an 
unprecedented display of frustration, hundreds of underground 
house church leaders and clergy have signed a statement calling 
out the Chinese government's abuse of power and violations 
against religious freedom.
    Each of these individuals are prisoners adopted by USCIRF's 
Commissioners through our Religious Prisoners of Conscience 
Project, but, sadly, they represent only a small fraction of 
the thousands wrongly imprisoned in China, many because of 
their faith. I am proud to advocate for both the Panchen Lama 
and Gulmira Imin, and my colleague Commissioner Gary Bauser is 
advocating on behalf of Hu Shigen.
    I would like to make some recommendations. It would be easy 
to think that there is little hope from a bleak assessment. 
However, there are a number of steps the U.S. Government can 
and should take to underscore religious freedom concerns in 
China.
    First, the State Department must immediately redesignate 
China as a CPC, a country of particular concern, for its 
systematic, ongoing, egregious violations of religious freedom. 
Under the Frank Wolf International Religious Freedom Act, CPC 
designations should have been made by the end of August, and 
the USCIRF urges the State Department to make them as soon as 
possible.
    Second, in addition to the appropriate sanctions available 
under IRFA subsequent to a CPC designation, the administration 
should pursue targeted sanctions against specific Chinese 
officials and agencies under the Global Magnitsky Human Rights 
Accountability Act.
    Third, the State Department and the entire administration 
should build on the momentum of the historic Ministerial to 
Advance Religious Freedom and continue their bilateral and 
multilateral efforts to shine a light on religious freedom 
concerns in China, such as in the Ministerial's statement on 
China.
    Fourth, the administration and Members of Congress should 
pursue regular visits to areas in China deeply impacted by the 
government's religious freedom abuses and raise religious 
freedom concerns, including cases of prisoners of conscience, 
whenever they interact with Chinese government counterparts.
    The House of Representatives just passed the Reciprocal 
Access to Tibet Act. The Senate should pass the Reciprocal 
Access to Tibet Act. That would deny entry into the United 
States for Chinese government officials responsible for 
creating or administering restrictions on U.S. Government 
officials, journalists, tourists, and others seeking to travel 
to Tibetan areas. I am a Tibet-American, and I would definitely 
like to go to see Tibet. So, I don't have that chance right 
now. Moreover, the U.S. Congress should more actively seek 
readouts from administration officials about their interactions 
with China, in particular, to inquire about discussions related 
to religious freedom.
    In conclusion, I am going to say that religious freedom is 
called a universal right for a reason: It belongs to everyone 
everywhere. Everyone has the right to have a faith or no faith 
at all, and no one has the right to control it for others. When 
the Chinese government attacks freedom of religion or belief in 
a wholesale and brutal manner, it is incumbent upon us all to 
hold them to account, not just because they have violated the 
norms and standards of rules-based international order, but 
because, in doing so, Beijing has assailed humanity with its 
blatant disregard for the human conscience.
    Thank you again for holding a hearing on such a timely and 
important subject.
    [The prepared statement of Mr. Dorjee follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Dr. Dorjee, thank you very, very much for your 
leadership and for that tremendous statement to the committee.
    Let me just begin now with some questions. Obviously, the 
State Department's Ministerial that was held in July was a 
very, very important event, it had all of the high-caliber 
people, including Ambassador-at-Large for Religious Freedom Sam 
Brownback and, of course, Secretary Pompeo. You and so many 
others were there.
    I wonder if you could just give us your thoughts as to the 
followup. How well do you think the momentum that was created 
at that Ministerial has been acted upon, especially as it 
relates to China? Why have few countries signed the statement 
on China? Is it out of fear of retaliation, in your view, or 
some other reason?
    And you did call for looking at sanctions? One of the 
concerns we have all had for years is that the Tiananmen Square 
sanctions have been used in a double-hatting fashion when it 
comes to CPC, putting curbs on police equipment. I have argued 
for years that a new set of very specific sanctions needs to be 
imposed on China to let them know that we are not kidding.
    In the past, we have even had to fight the State Department 
when they wanted to double-hat the Ambassador-at-Large himself 
or herself, and give somebody else the portfolio, and in 
addition to that, you will be the Ambassador-at-Large for 
Religious Freedom, which we very vigorously push back on. But, 
on the sanctions front, that is what we do. If you could speak 
to that, I would appreciate it.
    Marco Rubio and I chaired a hearing just a few weeks ago, a 
little longer than that. It has been a month. We focused on the 
Uyghurs and a number of aspects of the people being rounded up, 
about 1 million strong, maybe more; and put into concentration 
camps, reeducation camps. And we raised strongly--and 
Ambassador Kelly Curry, who is our Ambassador to the Economic 
and Social Council at the United Nations, gave very chilling 
testimony about the problem of surveillance; that the 
surveillance state has gone from looking for speeding, like we 
have here, those kinds--and that is not surveillance. That is 
perhaps even good law enforcement, arguably. But, there, it is 
everywhere.
    As he put it, ``thousands of surveillance cameras, 
including in mosques; facial recognition software; obligatory 
content-monitoring apps on smartphones and GPS devices on cars; 
widespread new police outposts with tens of thousands of newly-
hired police and even Party personnel embedded in people's 
homes; and compulsory collection of vast biometric databases on 
ethnic and religious minorities throughout the region, 
including DNA and blood samples, 3D photos, iris scans, and 
voiceprints.'' And he goes on from there. I mean, an intrusive 
state, the likes of which we have never seen.
    Back in 2006, I chaired a series of hearings on how Google, 
Microsoft, Cisco, and others were enabling the surveillance 
state to monitor the internet, to find out where people were, 
who they were talking to. And that continues unabated to this 
day. But now, doubling down, they are doing even more, and 
obviously, the technology here is being used elsewhere, but it 
could be used even more aggressively elsewhere as well. If you 
could speak to that?
    I mean, if ever there was a need for a sanctions regime, 
that is truly--and one of the things that came out in our last 
hearing was all of the American companies, European companies, 
that are just going along and selling them all of that 
equipment, which is being used to persecute, to torture, and to 
kill.
    Mr. Dorjee. Thank you for the opportunity to answer your 
questions.
    The Ministerial to Advance Religious Freedom was a very 
historic one. As you said, it was held for the first time. We 
believe that it was fruitful to a certain extent and there were 
some positive outcomes that we observed.
    For example, the like-minded countries are able to organize 
maybe religious events in the coming months. A number of 
countries have expressed their interest to create petitions for 
international religious freedom Ambassadors in the governments; 
for example, Mongolia, Taiwan, possibly Bahrain, and Poland. 
And so, the United States, here we have been fortunate to be 
highly active and engaged in the IRFA Roundtable supporting 
this and efforts.
    So, USCIRF has also engaged with a number of country 
delegations that already have, or are seeking to create, their 
own religious freedom roundtables. In Denmark last month, 
USCIRF engaged with country delegations from Vietnam, Burma, 
Indonesia, Malaysia at a Fourth Annual Southeast Asia Freedom 
of Religion or Belief Conference. And USCIRF looks forward to 
staying engaged with these stakeholders as well as existing 
partners like the International Panel of Parliamentarians for 
the Freedom of Religion or Belief.
    And so, USCIRF looks forward to having a more active role 
in planning the process for the next Ministerial. The 
Commission was proud to host two events that were part of the 
official program this July, including a 20th anniversary of 
IRFA reception, a U.S. grant workshop; plus, the efforts of 
NGOs in hosting so many successful site events during the 
Ministerial.
    With regards to why few countries signed on the statement 
of China, my understanding is that participating countries had 
really limited time to review the language before the deadline 
to sign on. And also, very few, if any, had like authority to 
sign it without consulting back at their home governments. And 
so, it is probably the matter of being the first time and a 
short time that it might have happened.
    Mr. Smith. Is it still open, if somebody wanted to sign it 
today?
    Mr. Dorjee. I believe so, but I am not sure exactly what 
the language reads.
    Mr. Smith. Okay. Because I think, if it is, an effort 
should be made to gather further----
    Mr. Dorjee. I would assume it would be, right? That we are 
welcoming, you know.
    Mr. Smith. Right.
    Mr. Dorjee. But a number of countries signed--we should 
acknowledge them--like Canada, the United States, the United 
Kingdom, and Kosovo. And we hope more will sign to that.
    With regard double-hatting, that there are issues, USCIRF, 
in our recommendations to the State Department for the CPC 
designations--so, 10 countries have been designated as CPC 
countries, and out of which, six have been subject to double 
and at the extension of preexisting sanctions. That includes 
China as well. And four have the waivers, if you will.
    And so, the administration has relied on this approach. 
While the statute permits the use that has the longest 
precedence under preexisting sanctions or indefinite waivers, 
it provides little incentive for the CPC designated government 
to reduce or hold egregious religious freedom violations. So, 
we would rather encourage the State Department for targeted 
sanctions, especially based upon religious freedom violations. 
And so, such sanctions, or the CPC designation must be followed 
by implementing a clear, direct, and unique Presidential 
action.
    And so, USCIRF also comments that current and future 
administrations and Congress need to recommend such to the full 
and robust application of mechanisms available under the 
International Religious Freedom Act, just as you pointed out 
that all the tools available must be used effectively.
    Mr. Smith. So, it is time to sanction, in your view?
    Mr. Dorjee. Yes, it is, I think, time, very much time to 
sanction, yes, targeted sanctions, I must say.
    Mr. Smith. Of course.
    Mr. Dorjee. And you also raised the issue about the Uyghur, 
or about 1 million Uyghurs' detention. And so, the surveillance 
of every movement, you know, and they use the most up-to-date 
technology they could buy from the American countries available 
that they could to track down everything. And there is so much 
of a social control of movements, basically, of the Chinese 
back in their own country. And so, that is a serious matter.
    I think American countries, if they are involved in such 
trade--of course, we are not saying don't do the trade. Yes, 
you need to make your profits. But we must also keep in mind 
our human concerns and humanity at heart. And so, what are the 
implications of selling this technology to China where they put 
it to wrong use?
    And not only, I think, in its circumstance with the Uyghur 
Muslims, they have been doing the same thing back in Tibet, 
where in the monasteries they have put all kinds of 
surveillance. And now, basically, the Chinese government, they 
appoint administrators in the monasteries, so that they can--
how should I say it?--plan out everything and control 
everything.
    So, such serious matters, I think the Congress and the 
President, all of us should look at. And you also mentioned how 
like Microsoft enabled that.
    Mr. Smith. Right, right.
    Mr. Dorjee. I think a company really has to--you know, we 
also have human and social responsibility besides making money. 
So, the only thing about trade, that is what enables China to 
be bold and do--how should I say?--egregious things in 
violation that they are doing. So, we do have to put a check on 
that, and I very much agree with your mindset, yes.
    Mr. Smith. Without objection, the letter by Marco Rubio and 
I to Wilbur Ross, the Secretary of Commerce, calling for bans, 
curbs on the export of those devices and that capability, 
without objection, it will be made a part of the record.
    I would like to yield to Mr. Suozzi.
    Mr. Suozzi. So, Dr. Dorjee, thank you so much for your 
testimony. We really appreciate it very much.
    Looking at your biography, I see that you are very much an 
expert on Tibet and Tibetan Buddhism. I look at the population 
of China of 1.38 billion, and I looked at the different 
populations of the different religions of religious Buddhists, 
Chinese Buddhists, 185 million to 250 million; Christians, 
Protestants, 60 to 80 million; Catholics, 12 million; Muslims, 
21 to 23 million; Falun Gong, 7 to 20 million, and 6 to 8 
million Tibetan Buddhists. Why is it that China sees the 
Tibetan Buddhist being such a tremendous threat to them? Why do 
they have to have such control over the Tibetan Buddhists? And 
why would they imprison the second--how did you refer to this 
boy? Well, he is not a boy now; he is a man.
    Mr. Dorjee. The Panchen Lama.
    Mr. Suozzi. ``Bengee''?
    Mr. Dorjee. Lama.
    Mr. Suozzi. Panchen Lama. So, he is the successor?
    Mr. Dorjee. Right.
    Mr. Suozzi. Is he----
    Mr. Dorjee. He is the second highest leader in Tibetan 
Buddhism.
    Mr. Suozzi. Yes.
    Mr. Dorjee. Very important, you know, for recognizing, for 
example, the reincarnation of the next Dalai Lama.
    Mr. Suozzi. Yes.
    Mr. Dorjee. So, yes, he is very important.
    Mr. Suozzi. But why is that seen as being such a threat to 
China?
    Mr. Dorjee. China claims to have 55 national minorities, 
and Tibetans are counted among those 55. But my understanding 
is that Uyghur Muslims and especially Tibetan Buddhists are 
very distinctive in terms of their history, language, culture, 
and religion, which stands out very much, as much as China 
claims Tibet to be part of China and Tibetans to be Chinese, 
but the fact of the matter is that, on many of those other 
issues, Tibetans are a very distinctive group of people.
    And so, the Tibetan Buddhism is a core of Tibetan identity, 
the Tibetan language and Tibetan Buddhism. And so, the Tibetan 
language is very different Chinese. Chinese origin is a 
pictograph form, but Tibetan is based upon the ancient Sanskrit 
language of India. And so, Tibetan came straight from India. 
Actually, we don't call it Tibetan Buddhism. When it came to 
the West, it started to be labeled, but we just call it 
Buddhism.
    Mr. Suozzi. Buddhism.
    Mr. Dorjee. Right. And so, Tibet as a nation, the people, 
for centuries they did one thing the best they could. They did 
get all the resources, human and everything, to--how shall I 
say it?--to further their Buddhist faith. And that is why they 
are known around the world today.
    So, if you take the Tibetan Buddhism out of them, the 
Tibetan language, then, you know, they probably are much less 
to be Tibetan in terms of cultural identity. So, that is why 
the Chinese know that, if you allow Tibetans to practice their 
faith and speak their language, which is really restricted--
they don't like Tibetans to be taught in schools and 
universities. They require them to study Mandarin. And so, the 
Tibet language advocate Tashi Wangchuk, right, he called for 
that very right, and he has been in prison still. So, it is the 
distinctive nature of things.
    And, of course, you mentioned that Tibetans are only like a 
small, probably 6 million.
    Mr. Suozzi. Very small.
    Mr. Dorjee. Very small. But, right now in Tibet, there are 
more Chinese than Tibetans. And so, that demographic shift and 
change probably the Chinese government thinks is the ultimate 
solution to Tibet-China issues, which is a big concern for us. 
And so, that is why I think we----
    Mr. Suozzi. But why is this small population of people such 
a threat to the Chinese government? Why do they perceive it as 
being such a threat?
    Mr. Dorjee. So, my belief is, as in the culture, as a 
communications scholar, whether the threat is actually there 
are not, it is the perception.
    Mr. Suozzi. Yes. Why?
    Mr. Dorjee. Because they feel that, if you let the Tibetans 
to practice their religion and language, then those are the 
bases that they can claim that they are not Chinese anymore, 
right? Whereas, that really subverts their claim.
    And also, I mean, to add to that, I have heard that, 
overall, there are about 300 million Buddhists in China, 
because that includes Tibetan Buddhists. So, that, itself, is 
probably threatening to the Chinese government, right, because 
the Buddhists believe in Buddha. All Buddhists believe in 
Buddha.
    So, combined with things, it is a potential for them that 
there could be big change that could----
    Mr. Suozzi. If you include all the religious groups, the 
Buddhists, the Chinese Buddhists, the Protestants, the 
Catholics, the Muslims, the Tibetan Buddhists, the Falun Gong, 
it is 380 million people. There is still another billion people 
that are not affiliated with any of those religions.
    Mr. Dorjee. Exactly.
    Mr. Suozzi. So, I met with some Chinese experts recently, 
and they pointed out to me that the big driving factor of the 
Chinese government and the Chinese hierarchy is control because 
they are afraid of chaos. They are afraid of things happening 
on their borders. You know, Tibet on their border, the Uyghurs 
out in the northwestern border. They are just concerned about 
losing control of their frontiers. Is that something you would 
agree with?
    Mr. Dorjee. Well, the Chinese is security conscious. You 
know, they may have some, and those are legitimate, of course, 
we understand. But, then, they use the national security as the 
protest to control everything, right, whether it has to do with 
national security or not. And, yes, you rightly said it. You 
know, they are--I am sorry to use this kind of word--control 
freaks really, China. And so, they have about 60 million 
Communist members, but there are 380 million religious faith 
believers. Look at the number. There is a potential, of course, 
they think the threat, you know, to their power and control.
    Mr. Suozzi. Okay.
    Mr. Smith. Will the gentleman yield on that point?
    Mr. Suozzi. Yes.
    Mr. Smith. But it is really to me control inside. I mean, 
they have no natural threat coming from Taiwan, coming from 
Vietnam, or anywhere else. And they have a military that is 
really a very high-grade military. It is really they just want 
power. Is that your view?
    Mr. Dorjee. I think it is just to stay in control and 
power. And, you know, the threat doesn't have to be objectively 
this, based upon my research studies. It is just perception-
based.
    China is very strong militarily. I don't think these faith 
believers can really subvert the control, but, then, they 
believe in that, and that is why they----
    Mr. Suozzi. Where in the Chinese history do you think 
control comes from, this fear of chaos, or this desire to be 
control freaks?
    Mr. Dorjee. Well, I think, largely, in my understanding, it 
is rooted in their Communist ideology and maybe past history 
where they were dominated by other countries. So, China, 
culturally speaking, is very much concerned with what we call 
``face concerns.'' They don't want to lose their face concerns, 
and they want to be the powerful nation. Perhaps they want to 
be the only super-power, if possible. So, it is all combined, 
those things that make them who they are, I believe.
    Mr. Suozzi. Okay. Thank you.
    Mr. Smith. Thank you.
    Just one brief thing, if I could. When we did the religious 
freedom law in 2016, many parts of that I think will make a 
difference, but two--we created a designated persons list for 
individuals who create egregious violations of religious 
freedom. And it also created a comprehensive religious 
prisoners list, persons who have been detained, imprisoned, 
tortured, and subjected to forced renunciation of faith.
    Are you satisfied that the State Department has faithfully 
created those two lists and they are up-to-date?
    Mr. Dorjee. I can appreciate that they are created, but I 
think we definitely would like to see more names on it. We 
understand that it has to be kept confidential until they put 
an action, but yes. And we also have, at USCIRF, amended to 
create a victims list and we are working on a database, too.
    Mr. Smith. Thank you so very much for your testimony and 
for your leadership.
    Mr. Dorjee. Thank you very much for the opportunity.
    Mr. Suozzi. Thank you so much.
    Mr. Smith. I would like to now ask our second panel to come 
to the witness table, beginning with Dr. Bob Fu, who is the 
founder and President of ChinaAid, a former student leader 
during the Tiananmen Square democracy movement in 1989.
    Dr. Fu graduated with a law degree in international 
relations from Remnant University in Beijing in 1993 and was a 
house church leader in Beijing until he and his wife were 
imprisoned in 1996. In 1997, he was exiled to the United States 
with his family, and, in 2002, founded ChinaAid to promote 
religious freedom and the rule of law in China.
    Dr. Fu regularly briefs policymakers on religious freedom 
and, in 2016, hosted the first-ever Asia-Pacific Regional 
Freedom Forum in Taiwan. He is a life member of the Council on 
Foreign Relations and editor-in-chief of the journal Chinese 
Law and Religion Monitor, and holds a doctorate in the field of 
religious freedom from St. John's College at the University of 
Durham in the United Kingdom.
    Then, we will hear from Dr. Thomas Farr, who is the 
President of the Religious Freedom Institute. Dr. Farr served 
for 28 years in the United States Army and the U.S. Foreign 
Service. In 1999, he became the first Director of the State 
Department's Office of International Religious Freedom.
    Dr. Farr is a Senior Fellow at the Institute for Studies of 
Religion at Baylor University; serves as consultant to the U.S. 
Catholic Bishops' Committee on International Justice and Peace, 
and teaches regularly at the U.S. Foreign Service Institute. 
Prior to these positions, he has directed the Witherspoon 
Institute's International Religious Freedom Task Force; was a 
member of the Chicago World Affairs Council's Task Force on 
Religion and U.S. Foreign Policy; taught at the National 
Defense University, and served on the Secretary of State's IRF 
Working Group. Most recently, Dr. Farr served as an associate 
professor of the practice of religion and world affairs at 
Georgetown University, where he directed the Religious Freedom 
Project at Georgetown's Berkely Center.
    He serves on boards of multiple organizations that seek to 
promote religious freedom. He has published multiple essays and 
major works on religious freedom. He holds a doctorate in 
history from the University of North Carolina, and he is also 
the author of World of Faith and Freedom, among other great 
writings that he has done.
    Dr. Fu, I yield.

  STATEMENT OF BOB FU, PH.D., FOUNDER AND PRESIDENT, CHINAAID

    Mr. Fu. Thank you, Chairman Smith, for your leadership, and 
thank you, Congressman Suozzi.
    I am also very honored to be on the same panel with the 
chairman, Dr. Dorjee, and Dr. Tom Farr.
    The religious freedom in China really has reached to the 
worst level that is not seen since the beginning of the 
Cultural Revolution by Chairman Mao in the 1960s. I will only 
maybe give you like five different aspects or symbols of those 
points to show why it has become the worst since the Cultural 
Revolution.
    Especially after the 19th Party Congress, the Communist 
Party has taken some unprecedented measures in cracking down on 
all independent faith groups. So, it is not only just the 
targeting of Christians or Catholics. As Chairman Dorjee just 
mentioned, it has been targeting any groups that show any 
independent spirit, such as, of course, the Tibetan Buddhists, 
the Uyghur Muslims in Xinjiang, as the chairman and Congressman 
Suozzi just mentioned, and Falun Gong, of course, and many 
other groups.
    So, because of the time limitation, I am asked to pay 
particular attention on the persecution against the Christians. 
First, we have not seen a level of persecution really since the 
end of the call for revolution on the number of religious 
institutions and churches that have been targeted or shut down. 
Since February the 1st, when the newly-enacted Regulations on 
Religious Affairs was taken into effect, in Henan Province 
alone, according to our documentation, the crosses of the 
churches, between 4,000 to 6,000 of churches, the crosses were 
being forcibly demolished or burned, as you can see from these 
latest photos. And a number of house churches, I mean the 
independent, unregistered house churches--I mean, we are 
talking thousands--were being shut down.
    Last week, we just received in one particular province, in 
one particular county within the Hunan Province, which is 
called kind of the ``Jerusalem of China,'' with perhaps the 
largest number of Christians populated in that province, at 
least an estimated number of Christians in that province alone 
is over 10 million members. So, in one county called Jiahe 
County, among the 140--these are government-sanctioned, 
supposedly registered and protected churches--90 of them were 
already shut down. And a number, of course, of the crosses were 
being demolished and burned, and the laborers were even being 
detained for simply showing up in defense of the crosses.
    Ironically, many of those churches, even the government-
sanctioned churches, when the cross was allowed to continue to 
exist inside the church, I mean on the church wall, they were 
forced to put the portrait of Chairman Mao and Chairman Xi 
Jinping on both sides of the cross.
    In the beginning of every worship service, the choir of the 
church has to sing a few Communist revolutionary songs praising 
the Communist Party before they can sing their worship-of-God 
songs.
    And the number of Chinese clergymen, I mean, these are even 
previously registered, approved by the government-sanctioned 
body. You know, the Three-Self Patriotic Movement and the 
Chinese Christian Council are forced to go through another 
round of examination, and the first criterion they have to pass 
as legitimate clergymen is whether they can publicly pledge 
they will follow the Party's words and the Party's Path.
    [Mr. Fu speaks Chinese briefly.]
    ``Listen to the Party's words first and follow the path of 
the Communist Party first.'' And these slogans are being hanged 
around the church. I mean even many Catholic churches, on the 
wall, I mean on the door, on the entrance door, there is a 
slogan that says, ``Listen to the words of the Party; follow 
the path of the Party.''
    So, how can you have a real independent faith? I mean, the 
believers, as a Christian believer, we are taught to obey the 
command of the Lord, to listen to the word of the Lord. And, 
essentially, the Communist Party wants to impose them self as 
the Lord over the church. I think that tells maybe one of the 
essential reasons why these churches are being targeted.
    The second symptom we can see why that this is the worst 
time of our religious freedom in China is, for the first time 
since the Cultural Revolution, the Communist Party is now 
implementing a policy, I mean a mandate for Chinese citizens of 
the faithful, religious citizens, to sign a form to renounce 
their faith. So, we have produced the documentation showing the 
villager chief, the Communist Party chief, door to door forced 
the believers to sign a prepared form claiming that, oh, this 
believer were misled by an evangelist into believing 
Christianity. And now, after a few weeks of self-examination 
and the studies, political studies, they realized they made a 
mistake. They pled they will never believe Christianity 
anymore. So, this has not happened in the past.
    The No. 3 symptoms to showing the unprecedented persecution 
is burning Bibles. The last time, under the Communist Party 
rule, when a Bible-burning ceremony happened was 1967 when 
Chairman Mao's wife, Madam Jiang Qing, organized a 1-minute 
Bible-burning ceremony in the Square of Shanghai. This is the 
first we have seen government officials went into the church, I 
mean confiscated all their Bibles and hymn books and Christian 
materials and piled them on the street, and started a Bible-
burning ceremony. So, this is also unprecedented.
    And the No. 4 signature of this unprecedented persecution 
shows that, not only the Communist Party is doing this 
persecution in its own borders, now we have evidence showing 
that the kind of persecution and the methodology our Communist 
Party is using in China is being exported to the neighboring 
country and regions.
    Last week, we have received a documented report showing to 
the Kachin autonomous region the Communist Party officials, at 
least three or four of them were sent them in the Kachin 
minority areas inside the Burma border and directed a campaign 
there almost word-by-word, including the forced demolition of 
crosses from the rooftop of the church building in the Kachin, 
in the Burma area, including arrests and so-called sinicization 
like, you know, arrest those church pastors for interrogation.
    And they also disbanded 23 Christian schools that were 
started by Pastor John Cao, with whom I had been befriended for 
over 25 years. And this year, he was sentenced to 7 years 
imprisonment as a Chinese-American pastor. And he is still 
suffering imprisonment, as we are talking now.
    So, all the Chinese house church Christians who are 
volunteering selflessly as the missionaries teaching Chinese 
and education in these schools were being rounded up--all. All 
of them were being imprisoned in the Kachin autonomous region. 
Then, last week, they were handed over to the Chinese 
authority, and at least eight of them are still being held in 
the Chinese prison, as we are talking.
    So, these are the measures that really, taken personally, 
again, that has not been seen since the Cultural Revolution. 
And how to tackle this? You are asking me to provide some 
recommendations. So, I have listed a few recommendations at the 
end of my written testimony. I would just highlight a couple of 
them, and then, I will add a few.
    First of all, I think I would recommend, besides the 
sanction put under the Global Magnitsky Act, I hope a Member of 
Congress should also really, and the U.S. Department of State 
and Treasury, should list more names of high-rank officials 
responsible for severe and systematic religious persecutions, 
as defined the USCIRF for sanctions. Because to sanction just 
one kind of middle, lower-rank, you know, one official is not 
enough. There are so many of those persecutors who are at 
large. So, we can work with the Member, with the Congress and 
the administration to produce more lists.
    And secondly, I urge Congress, through the CECC or other 
mechanisms, to target, to kind of create a watchlist, a 
religious persecutors watchlist, because we have a conscience, 
a Prisoner of Conscience list at both the CECC and the USCIRF 
Web site, but we also need to create a persecutors, to really 
let them know they are being watched. Let them know their 
family members, their children, their wife, and their other 
colleagues should be ashamed of those officials taking the 
persecution.
    And I also want to add a few recommendations. One of the 
way that we have seen the Chinese Communist Party have adopted 
really very efficiently in a sense, that targeting the 
religious minorities is through their internet control, through 
their censorship of the internet and smartphones, as you said. 
Because that is what they did when they are implementing this 
Uyghur, this 1 million group of Uyghur Muslims. I mean, the 
first thing when they are targeted is to check their smartphone 
or cut off their kind of internet access.
    I think even as the former Secretary of State Hillary 
Clinton even said, the kind of highway for internet freedom, 
for religious freedom, is to promote internet freedom. So, 
unfortunately, the BBG, under the current policy, only spent 
less than 1 percent of its budget on the internet 
circumvention. If we just appropriate 10 percent, I think it 
will scare, I mean not only scare, but bring the true freedom 
for the religious practice. I think that will be very 
effective. I would urge Congress to take concrete measures to 
urge the BBG or mandate the BBG to do more on the internet 
freedom.
    And another thing I really want to urge Congress to do to 
help is those religious freedom advocates have paid a heavy 
price during the incarceration, especially during the kind of 
inhumane torture and interrogations. And we have found that in 
the Chinese academy of police, the police academy, they have a 
department specifically making studies on the kind of torture 
and interrogation techniques that they are using for mental 
torture to break the will.
    We have seen many friends, the human rights lawyers, 
Christian leaders, such as Guo Xijin, who, by the way, 
disappeared again for over a year now without knowing where he 
is, and Attorney Wang Yu, Attorney Li Heping, Attorney Huang 
Qi, and the other Attorney Wang Quanzhang, who is still 
disappearing for almost 3 years. They had been subject for 
enormous torture under these kinds of techniques. So, I think 
this warrants Congress to have a targeted report to study and 
make recommendations on these departments.
    Finally, I want to call Congress to also investigate those 
Chinese-American citizens--they are American citizens--that are 
being used as a tool, willingly or unwillingly, to spread 
propaganda, lies, deceptions. And we have evidence showing that 
they are buying radio stations on the border of U.S. and 
Mexico, for instance, on the side of the Mexico border, so that 
they can broadcast daily propaganda, deception, lies to the 
Chinese-populated areas along the California coast from Los 
Angeles to San Francisco. I think it warranted a particular 
investigation because these are people managed by the Chinese-
American citizens here in the U.S., but they get their funding 
from the Chinese Communist Party propaganda fund.
    So, these are some of the recommendations I would recommend 
that the committee to take a look.
    Oh, by the way, I want to ask the chairman to grant me to 
submit, as part of the congressional record, the letter, the 
426 Chinese house church leaders signed urging the Chinese 
government to stop the persecution, and they signed with their 
real name and their church affiliation in a most really bold 
and unprecedented way. So, I want to----
    Mr. Smith. But, by making it public, does that put a target 
on their back?
    Mr. Fu. Yes.
    Mr. Smith. Is there any----
    Mr. Fu. Pardon me, Chairman. Okay.
    Mr. Smith. By making it further public at a congressional 
hearing, does that a target on their back under Xi Jinping's 
repressive police?
    Mr. Fu. No, because they already made their names public. 
They want to make a statement. They are not afraid. It is time 
for them to speak up.
    Mr. Smith. Years ago, we received testimony and read it 
aloud, and that person was brutally retaliated against for 
doing so. Again, this is the regime that most Americans still 
don't have a sense is barbaric. It uses torture as a means 
pervasively against its own people and certainly against 
religious believers. But if you think it should go in, without 
objection, it will be made a part of the record.
    Mr. Fu. Yes.
    [The prepared statement of Mr. Fu follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. I would like to now yield to Dr. Tom Farr.

 STATEMENT OF THOMAS FARR, PH.D., PRESIDENT, RELIGIOUS FREEDOM 
                           INSTITUTE

    Mr. Farr. Chairman Smith, Mr. Suozzi, thank you for holding 
this hearing, for inviting me here, and for being here 
yourselves. It is an honor to be here to meet Dr. Dorjee for 
the first time and to be with my old friend Bob Fu, Bob makes 
me angry every time I listen to him. Not at him, but at what he 
is talking about.
    The current assault on religion in China under President Xi 
Jinping is the most comprehensive assault on religion since the 
Cultural Revolution. Xi's policy intensifies a long-existing 
government strategy to undermine a major threat to the 
authority of the Communist State; namely, that religion is a 
source of authority and an object of fidelity greater than the 
state. This characteristic of religion has always been anathema 
to totalitarian and authoritarian despots and to majoritarian 
democracies. Most religions, by their nature, limit the power 
of the secular state, which is why our Founders put it as the 
first of the Bill of Rights.
    President Xi's intensification of China's anti-religion 
policy includes a renewed effort to alter the fundamental 
nature of certain religions. One is Islam, as practiced by the 
Uyghurs in Xinjang Province. As we have heard today, the 
Chinese have recently targeted the Uyghurs for an almost 
genocide-like transformation and/or elimination. Another is 
Tibetan Buddhism, the object for decades of a brutal Chinese 
strategy of persecution. A third is Roman Catholicism whose 
distinctive teachings on human rights and religious freedom 
pose a particular obstacle to the Communist State and to the 
impoverished Marxist-Leninist understanding of human nature and 
human dignity.
    Xi's policy presents a major challenge to American 
international religious freedom policy. Since Congress passed 
the International Religious Freedom Act 20 years ago, our 
policy has consisted primarily of episodic human rights 
dialogs, annual reports on, and rhetorical denunciations of, 
Beijing's periodic harsh crackdowns, and imposing mild and 
largely ineffective sanctions. None of this has had much impact 
on religious minorities or Chinese policy.
    Mr. Chairman, I support the imposition of targeted 
sanctions on Chinese officials or entities that sell 
surveillance equipment, but I want to do more. Overall, 
existing U.S. religious freedom policy simply hasn't worked, 
and it is unlikely to work, in my view, in the face of this 
systematic, fierce crackdown on religion.
    It is time to try a different approach that goes as close 
as possible to the root of the problem. Congress and the State 
Department should work together to develop an all-of-government 
U.S. diplomatic strategy, not only to show them, as the 
chairman says that we are serious with targeted sanctions, but 
to persuade Beijing of an empirically verifiable proposition; 
namely, that Chinese minority religions, including its 
Catholics, are not inclined to challenge the government's 
political power, but that, given the opportunity, they would 
further China's domestic interests in ways the government 
desperately needs, and that no entity other than religious 
communities can provide.
    If the Chinese government viewed religious communities as 
useful elements of their society, and simply left them alone, 
those communities would very likely make substantial 
contributions to addressing domestic problems that are of great 
concern to Chairman Xi and the Politiburo. For example, the 
fragility of China's economic growth and its social harmony, 
China's moral decline and increase in corruption, the threat of 
violent religious extremism, and a huge and growing need to 
care for China's poor, its sick and desperate population, its 
orphans, its victims of natural disasters, the aged, and the 
dying.
    A revised U.S. strategy emphasizing these themes would not 
be entirely new. As Director of the State Department's Office 
of International Religious Freedom, I participated in talks 
with the Chinese in which we made some of these arguments. They 
have been remade on occasion in recent years. But these 
arguments have been seen by the Chinese as mere assertions, 
talking points, made episodically by one office of the U.S. 
State Department, and largely ignored by other American 
officials. Equally important, they have not been accompanied by 
systemic, objective empirical evidence.
    To have a chance to succeed, a ``Chinese interest'' 
strategy must be an element of virtually all official U.S. 
interactions with China at all levels, and it would need to be 
fact-based. You can't fool people about this stuff--nobody, the 
Chinese, the Indians, nobody. It needs to be fact-based, and it 
needs to be an element of virtually all U.S. interactions with 
China at all levels. And it should be conveyed within a 
bilateral permanent institution such as a U.S.-China Working 
Group on Religion that would remove the ad hoc nature of past 
efforts.
    Such a U.S. strategy would not be expensive--important to 
say in Congress--although it would require new training of 
diplomats and the kind of diplomatic energy and will that does 
seem to be present under this Secretary of State and especially 
under Ambassador-at-Large for International Religious Freedom 
Sam Brownback. I do want to say that I think his predecessor, 
Ambassador David Saperstein, laid the groundwork for what I am 
talking about.
    Finally, a word about Vatican diplomacy. I am concerned 
that the recent Sino-Vatican provisional agreement will not 
improve the lot of Catholics in China. Nor will it improve the 
status of religious freedom for non-Catholic religious 
communities. Rather, it runs the risk of harming religious 
freedom in China for everyone, as well as inadvertently 
encouraging China's policy of altering the fundamental nature 
of Catholic witness. In my humble opinion as a Catholic, and as 
a long-term advocate for religious freedom for everyone, the 
Vatican's charism is to support that Catholic witness in China, 
as Pope-Saint John Paul II did in Communist Poland, not to abet 
its manipulation by a ruthless Chinese Communist regime.
    Thank you, Mr. Chairman. I look forward to questions.
    [The prepared statement of Mr. Farr follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
                              ----------                              

    Mr. Smith. Dr. Farr, thank you very much as well.
    Much of what you both have recommended, we will take very 
seriously and see how we can turn that into initiatives and 
policy. In the past when we did the last IRFA bill, named after 
that champion Frank Wolf, your input was remarkable. So, I want 
to thank you for that again in crafting a bill that I think 
provides more tools in the toolbox for the administration and 
makes it more of a priority. All of government, again, was 
included in that, not just an isolated view.
    But let me ask you a couple of questions. Dr. Fu, you 
mentioned Guo Xijin. And in previous hearings, we have heard 
Guo's daughter and Guo's wife making impassioned pleas on 
behalf of the father/the husband, in the case of Mrs. Guo 
Xijin. And I have to tell you, we tried, and continue to try, 
to assist the lawyers in any way we can. How does any lawyer 
now in China take up a religious freedom case, knowing that he 
or she becomes the targeted person? Guo Xijin has experienced 
unspeakable tortures at the hands of the Chinese dictatorship. 
Just mind-numbing how they mistreat and hurt their own people 
simply for, in his case, defending people of faith. Are there 
lawyers still ready, willing, and able, courageously, to step 
up? I mean, that is above and beyond.
    Mr. Fu. Thank you, Mr. Chairman, for your concern.
    So, the rule of law, of course, in the past few years had 
been also rapidly deteriorating, and all the Chinese law firms 
now are mandated to have a Communist Party branch inside the 
law firm.
    Mr. Smith. When did that happen?
    Mr. Fu. It was just recently. I think, recently, there was 
a new kind of directive issued by the Ministry of Justice. So, 
the law firm has to establish a Party kind of group inside the 
law firm.
    So, as you just mentioned, the kind of massive roundup 
since the July 9th, so-called ``709'' of 2015 had a training 
effect on many of those human rights lawyers. They were 
disbarred--a large number lost their license--or ended up in 
prison, sentenced. And so, some of them, survivors, are still--
and this is the spirit of the rule of law. We are very 
encouraged to see that there are still--I mean, it is a lesser 
number, but still there are some courageous lawyers who are 
still waiting to take up the cases.
    For instance, in Guizhou last year, on March 15th, there 
was a massive roundup of at least 200 house church leaders, and 
over 20 of them were indicted and were labeled as evil cult, 
based on the evidence of showing they are in possession of John 
Calvin's Institute of Christian Religion, The Pilgrim's 
Progress, The Streams in the Desert, this kind of devotional 
literature. And so, at least 12 of them were indicted and 
sentenced as many as 13 years imprisonment as leaders. So, we 
have seen quite a number of lawyers still, despite of the risk, 
still went for their defense.
    Mr. Smith. Could I just ask you on that--and I asked the 
previous witness about the whole idea of the State Department 
gathering names of people who are oppressing and persecuting. 
In your view--and, Dr. Farr, you might want to jump in on this 
one as well, or any question--are they getting ready to 
sanction enough people? Are the data calls going out to our 
FSOs, our human rights officers, our consulates, to be on the 
lookout for people who are repressing? Are we receiving names 
from human rights organizations like your own, that they, then, 
put into the database and say, ``Hmm, this person gets 
Magnitsky''? How aggressive has it been, if at all?
    And if you could, we have had a series of hearings in this 
subcommittee on what I consider to the complicity of many of 
our colleges and universities, both located there and through 
the institutes that they establish on campuses here and around 
the world; soft power, if you will.
    But there, are any of these universities or colleges 
pushing back on this latest attack on religious freedom or have 
they been quiet and mute?
    Mr. Farr. Well, with respect to the State Department, Mr. 
Chairman, the answer is I don't know, but I sure hope they are. 
They know what the law says. They know it very well. And one 
hopes that they are doing precisely what you said, putting out 
the instructions and beginning to enter them into the databank.
    I really do like the crowd that is in there now, but I have 
liked all of my colleagues in the Office of International 
Religious Freedom over 20 years. Somehow this stuff doesn't 
always get done. And I think in the past it has been because of 
the larger State Department's lethargy and inertia on this. I 
sense that is changing. After complaining for 20 years, I want 
to find something good, and I think--I hope it is changing on 
this, too.
    Universities and colleges, I am not aware of any university 
or college--I hope there are; I hope I am wrong about this--who 
is calling attention to this issue of religious freedom for the 
Muslims or the Christians or the Tibetan Buddhists, or anybody 
else. I would love to learn I am wrong about that.
    Mr. Smith. We could write them and ask what have they said. 
I mean, I criticized NYU for what I considered to be their 
complicity in silence regarding human rights. I self-invited, 
and I went and I spoke at Shanghai University to NYU there. 
They are very nice people. I spoke about human rights, but I am 
not sure if anything has come of it.
    There needs to be, I think, a precedence that says we are 
just not going to roll over, look the other way, and look 
askance while Chinese believers and others who are being 
tortured, democracy, labor leaders. When they try forming a 
labor union in China, it is off to the gulag.
    Mr. Suozzi. It is important to note that part of the hybrid 
strategies that are used by China, and others, is to take money 
and fund efforts in the United States at universities, fund 
Confucius Chairs, Confucius groups, and spread their influence 
in that way, and actually see what is going on here. It may be 
important for us to list where those locations and see what 
their universities are doing to actually identify Chinese human 
rights abuses.
    I think that we make China out to be very powerful, and 
like this big giant, and it is. But, at the same time, it has a 
lot of significant weaknesses as well. China has got enormous 
debt. It has got serious demographic problems related to their 
one-child policy and the male domination of a lot of these 
different communities. We have to recognize that they have a 
lot of vulnerabilities and that they are not just this 10-foot 
giant that there is. And we need to continue to identify what 
it is they are doing that makes them not part of the larger 
human conversation.
    So, thank you very much for your testimony and your help on 
these issues.
    Mr. Farr. If I could respond to that, Mr. Suozzi, on the 
Chinese vulnerabilities, not only the ones that you name. There 
is a demographic tragedy in the making because of all the males 
being born as a result of the one-child policy. In fact, I 
think it is already here in China. But the vulnerabilities that 
I mentioned, that religious communities in China can help 
solve, massive poverty still, despite all the economic growth--
their fear that economic development cannot be continued. We 
need to be helping the Chinese to understand that their own 
religious communities--they are not foreign agents--can help 
them with some of this. Point one.
    In the United States, I would say that there are entities--
and I don't want to use this to talk about my own alone, but we 
have been doing some work, not just on China, but all the other 
persecutors. To go to colleges and universities in the United 
States, we have a project called Under Caesar's Sword, which is 
about persecuted Christians around the world, but we also have 
projects on Muslims and Tibetan Buddhists, and others, where we 
are just trying to inform American college students--and, by 
the way, their faculties and administrations--that we have got 
a big problem, and it affects our interests. It is a 
humanitarian tragedy. But it also affects our interests as a 
country. And whether we are religious or not has nothing to do 
with what is going on in this global crisis of religious 
freedom and the way we ought to respond to it.
    So, we are making this argument around the country 
ourselves. But I agree with you, I think the Chinese are out 
there doing what they need to do. They know what they are 
doing. They know exactly what they are doing. I am not sure we 
do.
    Mr. Suozzi. One of the mistakes that we make often is that 
we take our value system that we have and expect that other 
people have those values in other places. And so, we are very 
influenced in the United States of America and throughout the 
West by Judeo-Christian values. So, what is the value system of 
China? Is it Confucianism? What is the basis of the value 
system, and how does that value system look at the individual? 
I mean, obviously, the Communist value system is the state is 
much more important than the individual. So, what is the value 
system of China?
    Mr. Fu. China's current value system is basically the 
communism coupled with nationalism. And that is why this 
Confucius Institute--we have, I think, 100 of them in the 
United States--is not a kind of purity, academic, independent 
institution at all. It should really register in the Justice 
Department as a foreign agent because they are not only just 
teaching the Chinese language or culture; they are brainwashing 
our university students on campus who enroll in the programs by 
choosing not to have any impartial view, like the Tibetan 
issue, the Tiananmen Square, the demonstration, or the Uyghur 
issue, or persecution, or religious freedom at all. I mean, 
overall, it is a forbidden topic on the United States campus, 
and they are fully funded by the Chinese propaganda funding.
    Mr. Suozzi. What is they are trying to brainwash about, 
though? What is it they are trying to tell them?
    Mr. Fu. They want to tell them, basically, that China is 
fine and there's no persecution; and that, actually, the 
Communist Party is doing great. That is the perception they 
want to create among the academicians and the students who 
enroll in these programs.
    So, that is, I think, as the FBI Director Wray already 
pointed out in his public hearing, I think this kind of 
Confucius Institutes have already posed a societal threat--I 
quote him--to the American society. I think they need to be 
warned and taken out, I think, if they don't correct the 
course.
    To answer the first question about the State Department, I 
have firsthand experience in my dealing with the White House 
and the State Department over the years. At least I can testify 
and give them the credit to the current administration. I have 
seen really more proactive moments, measures, and even some 
unprecedented actions taken by the Trump administration than 
the previous administrations, both Republican and Democrat 
administrations, in terms of aiding those victims of the 
religious persecution and rescuing them. This year alone, we 
had, with the active support and help from this administration, 
we rescued five families who were in danger, and some families 
were rescued with the direct involvement and order by President 
Trump himself from the Oval Office.
    And the State Department, the career diplomats, both in 
Beijing and here in Washington, DC, I have seen for the first 
time they even reach out to me, like asking us to be sponsors 
for those who are being targeted for persecution, I mean for 
rescue. That was not done before. In the past, we have to beg 
the bureaucracies to even pay attention on that.
    So, that is some difference. I really want to give the 
credit. I think Secretary Pompeo made the first-ever 
announcement of sanctions on Iran during the Ministerial 
Advancement, the summit. It was also a very promising, positive 
step.
    Mr. Smith. This is not political. But I remember when we 
had the five daughters testify, each of them pleading for their 
fathers, including Guo Xijin's daughter. The Washington Post, 
Fred Hiatt, actually, did a wonderful and very incisive op-ed, 
signed, in The Washington Post. He is the editorial page 
director, but he wrote this.
    And the young ladies appealed through our committee to meet 
with President Obama. They said, ``Please, you have two 
daughters, Mr. President. Please, meet with us, so we can 
convey to you the agony that we feel over our fathers being 
tortured in China.'' We tried for over \1/2\ year to get that 
meeting. And the final statement made back to my staff was, 
``He just doesn't have the time.''--``he'' being President 
Obama. And in my opinion, that was emblematic of what we found 
on just about every human rights issue vis-a-vis China and 
other places as well.
    When it came to human trafficking--and I am the author of 
the Trafficking Victims Protection Act of 2000 and three other 
additional trafficking laws--China only drew an automatic 
downgrade, which was done by way of law. As soon as they could 
put it back up to a good grade, they did.
    Secretary Pompeo and this administration looked at the 
evidence and said, China is an egregious violator of human 
trafficking, sex and labor trafficking, and put them on Tier 3, 
which is the egregious violator category. China's government 
pushed back vigorously, to no avail.
    CPC, we expect that to be designated, hopefully, soon, but 
with sanctions. And in even in the area--and you mentioned, Mr. 
Suozzi--on the whole area of coercive population control, for 8 
years under President Obama we funded organizations that were 
supportive of the Chinese government's forced abortion policy, 
like the UN Population Fund and Marie Stopes International. 
This administration changed that and said, you cannot harm 
women and brutalize women with forced abortion, which was 
properly construed to be a crime against humanity at the 
Nuremberg War Crimes Tribunal, without us saying, at least we 
are not going to fund the organizations that are aiding and 
abetting those atrocities.
    Across the board we see a change. My sense is it hasn't 
gone far enough. And we did have a good Ambassador-at-Large 
with Rabbi Saperstein in the last administration in the final 
years. I want to be completely candid and grateful to his fine 
work. And, of course, now we have a new Ambassador-at-Large who 
is doing a wonderful job. So, there is hope.
    Dr. Farr, you make a great point. Xi Jinping and his 
cronies need to understand that people of faith make good 
citizens. They are problem-solvers. They are not enemies of the 
state. It is your secret police that is truly the enemy of the 
people, not the believers.
    One final question, and then, Mr. Suozzi, if you want as 
well. But the question of how much worse can it get. I always 
want to know, parenthetically, in follow up to what you were 
saying, Dr. Fu--I have introduced H.R. 6010, which calls for an 
unclassified interagency report on political influence 
operations of the Chinese government and the Communist Party, 
which, of course, are one and the same. We want to know, to 
what extent, where, when, how. We know what they are trying to 
do vis-a-vis Hollywood, so that the scripts and the movies that 
get produced will have a benign view toward the PRC and toward 
the Communist Party.
    We know what they are doing all over with the Confucius 
Institutes. We have had hearings on that. And that is growing, 
not diminishing, and it is worldwide. As you know on our 
committee, it is all over Africa; it is all over Asia; it is 
all over--you name the country; they are trying to use this 
influence peddling. And it gets really bad.
    I will conclude on this one. When Chi Hoatian, the man who 
ordered the Tiananmen Square massacres, came and met with 
President Clinton, he got a 19-gun salute reception at the 
White House; went to the National War College because he was 
now secretary of defense, or the equivalent of, and got a 19-
gun salute there. He went to the War College and said, ``Nobody 
died at Tiananmen Square.''
    I put together a hearing in 2 days, had all these 
individuals, including a Time magazine correspondent, students, 
a People's Daily editor, who actually paid a price for trying 
to write about it, because they were saying nobody died; there 
were no tanks. And Google certainly enabled that with their 
showing nothing but pretty pictures of Tiananmen Square, 
censoring out anything that showed the bloodshed.
    And this man got away with it. We had the hearing. We 
invited him or anybody from the Embassy to be here, but we did 
push back very, very hard. They do get away with the big lie 
employed systematically, unless there is an effort to speak 
truth to that power.
    But how much worse can it get? That would be my final 
question. Xi Jinping is President for life. He is trying, in my 
humble opinion, to crush all religion or make it subservient to 
the Communist Party. How much worse can it get?
    Mr. Farr. I think it can get much worse. I think, as I have 
said, that this is the 21st century version of the Cultural 
Revolution. It doesn't have the Red Guards going around beating 
and killing and burning people, but it is getting pretty close. 
We have got a Stalinesque surveillance system in the Xinjang 
Province with all the stuff you talked about earlier. It is 
almost inconceivable how far you can go with this. And so, I 
think it is a grave mistake for us to underestimate what is 
going on in China.
    And I would just say--and, then, I will let Bob Fu talk--
this is a humanitarian crisis, but this affects our national 
interests. This is not just about people being brutalized. It 
is that, but we have to say more than that. We have to 
understand this threat within our own national security 
apparatus, and I think that is a major, major message I would 
like to leave with the committee. This is a national security 
issue for the United States, as well as a humanitarian 
catastrophe.
    Mr. Fu. Thank you, Dr. Farr.
    It is, I totally agree, a national security threat. 
According to a document released by a provincial Three-Self 
Patriotic Movement, they have a 5-year plan to sinicize the 
Christianity to make Christianity compatible with socialist--
that is their slogan--including a plan to retranslate the 
Bible. And according to a latest outline, the retranslated 
version of the Bible would be a mixture, a summary of the Old 
Testament, some Buddhist literature, some Confucius teachings, 
and then, there is a new kind of commentary for the New 
Testament. So, that is how the so-called sinicization of 
religion would look like. I think it will get worse.
    Another thing you want to point out is this American 
gigantic social media or high-tech companies. They should be 
ashamed of themselves, like Google, Facebook. In order to just 
dump into the Chinese market, they are actively collaborating 
with the Chinese police. And you have the Chinese version of 
the Apple Store, purposely, deliberately; take off all the VPN 
tools without a consent from the Chinese users, so that they 
cannot have the limited tools to download or to use to 
supplement the internet firewall.
    You have, of course, Facebook already disclosed they are 
working, contracting with the Chinese government's own 
companies to give them access, unlimited access to the Chinese 
customers. So, these are really like deliberate aiding to this 
worsening persecution trend. I think they really should be 
ashamed of themselves.
    Mr. Smith. Dr. Farr?
    Mr. Farr. Could I just add one other thing? I hear all the 
beeping. I don't know what it means. I don't know if it means 
shut up and----
    Mr. Smith. Oh, no, no, no. You have got time.
    Mr. Farr. Okay. This is in my written statement, which I 
hope will be in the record.
    Mr. Smith. Without objection, both of your statements in 
their entirety will be a part of the record.
    Mr. Farr. Thank you.
    This goes to--maybe you won't object, Mr. Suozzi, when I 
bring out this issue. This goes to the problem of how we fail 
to understand what is going in China. I want to raise the Ting 
Xue asylum case. This gentleman fled China. He had been beaten, 
arrested, put into jail, threatened with much more severe--and 
it was pretty severe already--if he went again to a Chinese 
house church.
    He made it to this country. He applied for asylum. He went 
before an asylum court, and the Department of Justice argued--
and the 10th Circuit Court of Appeals agreed with the 
Department of Justice's argument--that, since he could go back 
to China and privately worship, in other words, worship in 
secret, this was not grounds for asylum in the United States. 
It was not grounds for a--what is the phrase?--a fear----
    Mr. Smith. Well-founded fear of persecution.
    Mr. Farr. A well-founded fear of persecution. I mean, after 
having been beaten and put into jail, and threatened with more 
of this, I am not sure what a well-founded fear of persecution 
means in the English language.
    But here we have the Department of Justice and the 10th 
Circuit--now, fortunately, the Department of Justice settled. 
But this is still the official position of the Department of 
Justice. With the help of former Solicitor General Ken Starr 
and others, we spoke to a group of over 300 asylum judges about 
this, and we are trying to get the attention of the Attorney 
General, who has the authority under the law to change this 
position for the Department.
    I just want to raise this for the committee. I think this 
is a very important issue that goes to China, but not just 
China. It goes to what is religion and religious freedom. If 
religious freedom only means the right to worship in private, 
in secret, Saudi Arabia will give you that right. Almost every 
country in the world will let Tibetan Buddhists and Muslims, or 
anybody else, do their thing in private. That is not the 
meaning of religious freedom in the American system. And I 
think it is a disgrace that any court in this land has taken 
such a position.
    Mr. Smith. Well, Dr. Farr, thank you for that. We will 
initiate a letter----
    Mr. Farr. Thank you.
    Mr. Smith [continuing]. And it will go to the Attorney 
General. Mr. Suozzi and I will take the lead on it. So, I thank 
you for that very important intervention. You would think that 
this would be resolved.
    Anything else you would like to add before we conclude?
    If not, thank you so very much. You have given us so much 
to act on and so many insights.
    The hearing is adjourned.
    [Whereupon, at 3:49 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
	 

                                 [all]
</pre></body></html>
